           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



   ADMINISTRATIVE COSTS CLAIMED
      BY THE TEXAS DISABILITY
     DETERMINATION SERVICES

   March 2006        A-06-06-16008




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                          SOCIAL SECURITY
MEMORANDUM

Date:   March 23, 2006                                                                         Refer To:

To:     Ramona Schuenemeyer
        Regional Commissioner
         Dallas

From:   Inspector General

Subject: Administrative Costs Claimed by the Texas Disability Determination Services
        (A-06-06-16008)


        OBJECTIVE
        Our objectives were to (1) determine whether costs claimed on the State Agency Report
        of Obligations for SSA Disability Programs for the period October 1, 2001 through
        September 30, 2004 were allowable and funds were properly drawn; (2) evaluate Texas
        Disability Determination Services’ (TX-DDS) internal controls over the accounting and
        reporting of administrative costs; and (3) perform a limited review to assess the general
        security control environment.

        BACKGROUND

        The Disability Insurance (DI) program, established under Title II of the Social Security
        Act provides benefits to wage earners and their families in the event the wage earner
        becomes disabled. The Supplemental Security Income (SSI) program, established
        under Title XVI of the Act, provides benefits to financially needy individuals who are
        aged, blind, or disabled.

        The Social Security Administration (SSA) is responsible for implementing policies for the
        development of disability claims under the DI and SSI programs. Disability
        determinations under both DI and SSI are performed by Disability Determination
        Services (DDS) in each State, Puerto Rico and the District of Columbia in accordance
        with Federal regulations. 1 In carrying out its obligation, each DDS is responsible for
        determining claimants’ disabilities and ensuring adequate evidence is available to
        support its determinations. To assist in making proper disability determinations, each




        1
            20 Code of Federal Regulations (C.F.R.) §§ 404.1601 et seq. and 416.1001 et seq.
Page 2 – Ramona Schuenemeyer


DDS is authorized to purchase medical examinations, x-rays, and laboratory tests on a
consultative basis to supplement evidence obtained from the claimants’ physicians or
other treating sources.

SSA reimburses the DDS for 100 percent of allowable expenditures up to its approved
funding authorization. The DDS withdraws Federal funds through the Department of the
Treasury’s (Treasury) Automated Standard Application for Payments system to pay for
program expenditures. Funds drawn down must comply with Federal regulations 2 and
intergovernmental agreements entered into by Treasury and States under the Cash
Management Improvement Act of 1990. 3 An advance or reimbursement for costs under
the program must comply with Office of Management and Budget (OMB) Circular A-87,
Cost Principles for State, Local, and Indian Tribal Governments. At the end of each
quarter of the Fiscal Year (FY), each DDS submits a State Agency Report of
Obligations for SSA Disability Programs (Form SSA-4513) to account for program
disbursements and unliquidated obligations for the FY. 4 The Form SSA-4513 reports
expenditures and unliquidated obligations for Personnel Service Costs, Medical Costs,
Indirect Costs, and All Other Nonpersonnel Costs.

TX-DDS is a component of the Texas Department of Assistive and Rehabilitative
Services (TX-DARS) and is located in Austin, Texas. TX-DARS completes and submits
Forms SSA-4513 and prepares requests to transfer cash from Treasury to the State
Treasurer. As of September 30, 2005, TX-DARS had reported program disbursements
and unliquidated obligations on Form SSA-4513 as shown on the table below.

           Amounts Reported as Disbursements and Unliquidated Obligations
                                    for TX-DDS

          Reporting Item                     FY 2002             FY 2003            FY 2004
          Disbursements
            Personnel                         $46,342,087        $46,757,531        $47,399,479
            Medical                            34,300,218         33,378,558         33,658,262
            Indirect Costs                     11,063,618         10,226,336          8,344,138
            Other Nonpersonnel                  8,220,532          8,271,473          9,597,095
          Total Disbursements                 $99,926,455        $98,633,898        $98,998,974
          Unliquidated Obligations                     $0                 $0            $40,157
          Total Obligations                   $99,926,455        $98,633,898        $99,039,131




2
    31 C.F.R. § 205.1 et seq.
3
    Public Law 101-453.
4
 SSA, Program Operations Manual System (POMS), DI 39506.200 B.4, The Reporting Process –
Recording and Reporting Obligations states, “Unliquidated obligations represent obligations for which
payment has not yet been made. Unpaid obligations are considered unliquidated whether or not the
goods or services have been received.”
Page 3 – Ramona Schuenemeyer


RESULTS OF REVIEW
For FYs 2002, 2003 and 2004, disbursements charged to SSA for TX-DDS operations
were generally allowable and funds were properly drawn. However, the State
improperly charged payments totaling $778,111 to terminated employees for unused
leave and could not support unliquidated obligations totaling $40,157 for FY 2004.

PAYMENT OF UNUSED LEAVE TO TERMINATED EMPLOYEES

TX-DDS improperly charged costs associated with the payment of unused leave for
terminated employees. These costs were charged as direct costs and indirect costs.
Such costs should have only been allocated indirectly as general administrative
expenses across all activities of the governmental unit or component. In FYs 2002,
2003, and 2004, employees who separated from service were given lump-sum
payments totaling $219,969, $383,271, and $174,871, respectively.

Federal regulations state that payments for unused leave for employees who terminate
their employment through retirement or other separation are allowable “…provided they
are allocated as a general administrative expense to all activities of the governmental
unit or component.” 5 Thus, the costs are not allowable as direct charges. Additionally,
on July 31, 2002, the Acting Associate Commissioner for Disability sent DDS
Administrators’ Letter No. 615 reminding the administrators of the correct procedure for
reporting payments for accumulated leave or severance pay when an individual leaves
employment. The letter, which was effective July 31, 2002, urged DDSs to examine
their indirect cost agreements to ensure they are structured to account for payment of
unused leave to retired/terminated employees in accordance with OMB Circular A-87.

UNLIQUIDATED OBLIGATIONS REPORTED ON FORM SSA-4513 WERE NOT
SUPPORTED

The TX-DARS was unable to support $40,157 reported as an unliquidated obligation for
FY 2004. Absent supporting documentation, we were unable to determine the nature of
the obligation, the allowability of the amount reported, the existence of the obligation in
the Federal FY or the creation of the liability. Per SSA guidance, “Valid obligations
should be supported by documents/records that describe the nature of the obligations
and support the amounts recorded.” 6




5
    OMB Circular A-87, Attachment B, Section 8.d (3). (Revised 5/10/04).
6
    SSA, POMS, DI 39506.200 B.1., The Reporting Process - Recording and Reporting Obligations.
Page 4 – Ramona Schuenemeyer


CONCLUSION AND RECOMMENDATIONS
In general, TX-DDS disbursements charged to SSA for FYs 2002, 2003, and 2004 were
allowable and funds were properly drawn. However, the State improperly charged
payments totaling $778,111 to terminated employees for unused leave and could not
support unliquidated obligations totaling $40,157 for FY 2004.

We recommend that SSA instruct the TX-DDS to:

1. Refund costs charged to SSA for unused leave payments for TX-DDS employees
   who terminated their employment through retirement or other separation. This
   consisted of $219,969 identified during FY 2002; $383,271 during FY 2003; and
   $174,871 during FY 2004.

2. Deobligate $40,157 from the FY 2004 Form SSA-4513.

AGENCY COMMENTS
SSA agreed with our recommendations. Regarding Recommendation 1, SSA stated it
will provide Texas with instructions on how to process this refund. To address
Recommendation 2, SSA stated Texas is working on a change to its accounting system
that will prevent this type of finding in the future. See Appendix D for the full text of the
Agency’s comments.

STATE AGENCY COMMENTS
The TX-DDS agreed with our recommendations. See Appendix E for the full text of the
TX-DDS’ comments.

OIG RESPONSE
We appreciate the comments received from SSA and TX-DDS and believe the
responses and planned actions adequately address our recommendations.




                                               S
                                              Patrick P. O’Carroll, Jr.
                                      Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Texas Disability Determination Services’ Schedule of Disbursements,
             Obligations, Audit Adjustments, and Disbursements Allowed

APPENDIX D – Agency Comments

APPENDIX E – State Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                              Appendix A

Acronyms
C.F.R.          Code of Federal Regulations
DDS             Disability Determination Services
DI              Disability Insurance
Form SSA-4513   State Agency Report of Obligations for SSA Disability Programs
FY              Fiscal Year
OMB             Office of Management and Budget
POMS            Program Operations Manual System
SSA             Social Security Administration
SSI             Supplemental Security Income
Treasury        Department of the Treasury
TX-DARS         Texas Department of Assistive and Rehabilitative Services
TX-DDS          Texas Disability Determination Services
                                                                      Appendix B

Scope and Methodology
We reviewed the administrative costs the Texas Disability Determination Services
(TX-DDS) reported to the Social Security Administration (SSA) on State Agency Report
of Obligations for SSA Disability Programs (Form SSA-4513) for the period
October 1, 2001 through September 30, 2004. We obtained sufficient evidence to
evaluate administrative costs in terms of their allowability under Office of Management
and Budget Circular A-87, Cost Principles for State, Local and Indian Tribal
Governments, and appropriateness as defined by SSA’s Program Operations Manual
System (POMS). The TX-DDS reported total obligations of $99,926,455 in Fiscal Year
(FY) 2002, $98,633,898 in FY 2003 and $99,039,131 in FY 2004 as of September 2005.

To accomplish our audit objectives, we

•   Reviewed applicable Federal laws and regulations, pertinent parts of SSA’s POMS
    and other instructions pertaining to administrative costs incurred by TX-DDS and the
    draw down of SSA funds.

•   Obtained computerized data from the State to support amounts reported on
    Form SSA-4513 and tested the reliability of the data by comparing disbursements,
    by category and in total, with amounts reported on Form SSA-4513.

•   Reconciled the amount of Federal funds drawn for support of program operations to
    the allowable expenditures.

•   Reconciled the accounting records to the costs reported by TX-DDS on its Form
    SSA-4513 for FYs 2002, 2003, and 2004.

•   Reviewed TX-DDS’ policies and procedures related to personnel, medical, indirect,
    and non-personnel costs.

•   Interviewed staff from SSA, Texas Department of Assistive and Rehabilitative
    Services, and TX-DDS.

•   Documented our understanding of the TX-DDS’ system of internal controls over the
    accounting and reporting of administrative costs.

•   Conducted limited general control testing related to physical access security and
    security within the TX-DDS.




                                          B-1
•   Selected a random sample of personnel, medical, and non-personnel costs.

    ¾ Reviewed a sample of 50 employees from one pay period in May 2004 and
      traced information to accounting records, timesheets, and personnel files.

    ¾ Selected all 46 medical consultants on the TX-DDS staff paid during one pay
      period in May 2004 to determine whether the consultants were licensed and if
      payments to the consultants complied with the terms of their employment
      contract.

    ¾ Sampled medical cost payments for Medical Evidence of Record and
      Consultative Examination payments and reviewed a sample of 50 medical cost
      payments per year from FY 2002, FY 2003, and FY 2004.

    ¾ Reviewed a sample of 50 All Other Nonpersonnel Cost payments per year from
      FYs 2002, 2003, and 2004.

•   Examined indirect costs claimed by TX-DDS for FYs 2002, 2003, 2004 and the
    corresponding indirect cost rate agreements.

The entity audited was the TX-DDS within the Texas Department of Assistive and
Rehabilitative Services. We performed our audit at the TX-DDS State Office and Texas
Department of Assistive and Rehabilitative Services in Austin, Texas, and at the SSA
Regional Office in Dallas, Texas. Our audit was conducted from June 2005 through
January 2006. We conducted our audit in accordance with generally accepted
government auditing standards.




                                        B-2
                                                             Appendix C

Texas Disability Determination Services’
Schedule of Disbursements, Obligations, Audit
Adjustments, and Disbursements Allowed
               Disbursements Unliquidated       Audit        Disbursements
 Description      Reported   Obligations     Adjustments        Allowed

FY 2002
Personnel         $46,342,087                   ($219,969)      $46,122,118
Medical            34,300,218                            0       34,300,218
Indirect           11,063,618                            0       11,063,618
All Other           8,220,532                            0        8,220,532
  Totals          $99,926,455                   ($219,969)      $99,706,486

FY 2003
Personnel         $46,757,531                   ($383,271)      $46,374,260
Medical            33,378,558                           $0      $33,378,558
Indirect           10,226,336                           $0      $10,226,336
All Other           8,271,473                           $0       $8,271,473
  Totals          $98,633,898                   ($383,271)      $98,250,627

FY 2004
Personnel         $47,399,479                   ($174,871)      $47,224,608
Medical            33,658,262      $34,766        (34,766)       33,658,262
Indirect            8,344,138        3,525         (3,525)        8,344,138
All Other           9,597,095        1,866         (1,866)        9,597,095
  Totals          $98,998,974      $40,157      ($215,028)      $98,824,103
                  Appendix D

Agency Comments
                                          SOCIAL SECURITY

MEMORANDUM

Date:      March 6, 2006

To:        Patrick P. O’Carroll, Jr
           Inspector General

From:      Ramona Schuenemeyer
           Regional Commissioner
           Dallas

Subject:   Administrative Costs Claimed by the Texas Disability Determination Services
           (A-06-06-16008) -- Reply


           We appreciate the opportunity to comment on this draft audit report. We agree with both of the
           recommendations and are working with the DDS to implement the necessary changes. We
           would like to thank the OIG Audit staff in the Dallas Region for the excellent manner in which
           they were able to organize and perform this audit. We certainly appreciate their efforts to keep
           all parties informed of their progress during the course of the audit.

           Our responses to the recommendations contained in the narrative report are as follows:

           1. Refund costs charged to SSA for unused leave payments for TX-DDS employees who
              terminated their employment through retirement or other separation. This consisted of
              $219,969 identified during FY 2002, $383,271 during FY 2003, and $174,871 during
              FY 2004.

              We concur with this recommendation. We will provide the State of Texas with instructions
              on how to process this refund.

           2. Deobligate $40,157 from the FY 2004 Form SSA-4513.

              We concur with the recommendation. The State of Texas is working on a change to their
              accounting system that will prevent this type of finding in the future. Texas will make
              additional efforts to verify these obligations should be cancelled and will take appropriate
              action.

           If you would like to discuss this, please call me. If your staff has questions, please have them
           call Tom Berling at (214) 767-4281 in Management and Operations Support, Center for
           Disability.
                        Appendix E

State Agency Comments
                                                                                    Terrell I. Murphy
                                                                                      Commissioner


March 10, 2006


Patrick P. O'Carroll Jr.
Social Security Administration, Office of Inspector General
6401 Security Blvd\4-L-1 OPER
Baltimore, Maryland 21235-001


RE:    Texas Response to OIG Findings

Dear Mr. O’Carroll:

Finding one: Refund costs charged to SSA for unused leave payments for TX-DDS employees who
terminated their employment through retirement or other separation. This consisted of $219,969
identified during FY 2002; $383,271 during FY 2003; and $174,871 during FY 2004.

Response: We concur with this recommendation. Dallas Regional Office will provide us with
instructions on how to process this refund.

Finding two: Deobligate $40,157 from the FY 2004 Form SSA-4513.

Response: While we concur that the State of Texas could not provide supporting documentation for
these unliquidated obligations, we are working on a change to our accounting system that will prevent
this type of finding in the future. Texas will continue verifying expenditures and canceling remaining
obligations as necessary in conjunction with the Dallas regional office. As of December 31, 2005 the
unliquidated obligations total $24,950 and we anticipate finalizing FY 2004 by the end of FY 2006.

Please contact James Dawson, DARS Accounting Director at (512) 424-4601 if you have any
questions.



Sincerely,




William R. Wheeler
Chief Financial Officer

                                    Partnerships for Independence
       P.O. BOX 12866, AUSTIN, TX 78711 ♦ ADMINISTRATIVE BUILDING, 4800 N. LAMAR BLVD., AUSTIN, TX 78756
                               TEL., TDD, VOICE: (512) 377-0800 ♦ FAX: (512) 377-0682
                                                                       Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Paul Davila, Director, (214) 767-6317

   Paul Wood, Audit Manager, (214) 767-0058

Acknowledgments

In addition to those named above:

   Lela Cartwright, Auditor-in-Charge

   Ashley Moore, Auditor

   Wanda Renteria, Auditor

   Clara Soto, Auditor

   Warren Wasson, Auditor

   Joshua Campos, Auditor

   Brennan Kraje, Statistician

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-06-06-16008.
                           DISTRIBUTION SCHEDULE


Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
